NO. 20-7071
IN THE SUPREME COURT OF THE UNITED STATES
OCTOBER TERM, 2020
__________
PETE RUSSELL,
Petitioner
v.
BOBBY LUMPKIN,
Director of Texas Department of Criminal Justice,
Correctional Institutions Division,
Respondent
__________
PETITIONER’S PETITION FOR REHEARING OF
THE PETITION FOR WRIT OF CERTIORARI TO
THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

Winston Earle Cochran, Jr.
Attorney at Law
Texas Bar No. 04457300
S. D. Texas No. 14490
P. O. Box 2945
League City, TX 77574
Tel. (713) 228-0264
E-mail: winstoncochran@comcast.net
Counsel of Record under the
Criminal Justice Act of 1964,
18 U.S.C. §3006A(d)(6)

QUESTION PRESENTED IN THE
PETITION FOR WRIT OF CERTIORARI
Did the Court of Appeals err in denying a certificate of appealabilty,
through a merits review, of Russell’s claim that he received ineffective
assistance of counsel at the punishment stage of trial with respect to
future dangerousness?

2

TABLE OF CONTENTS
Question Presented in the Petition for Writ of Certiorari

2

Table of Cited Authorities

4

Statement of Jurisdiction

5

Statement of the Case

5

Summary of the Argument

7

Reasons for Rehearing

8

I.

Compliance with Rule 44.2

8

II.

The Importance of Discrete Review of Future Dangerousness

7

III.

New Insights from Ex parte Andrus

10

IV.

The Need for a Certificate of Appealability

13

Conclusion

14

Certificate of Compliance with Sup. Ct. R. 44.2

15

Proof of Service

Submitted Separately

3

TABLE OF CITED AUTHORITIES
Cases

Page

Andrus v. Texas, 590 U.S. __, 140 S.Ct. 1875 (2020)

7, 10

Ex parte Andrus, , __ S.W.3d __ (Tex. Crim. App. No. WR-84,438-01,
May 19, 2021) (2021 Tex. Crim. App. LEXIS 522)
Russell v. Lumpkin, 827 Fed. App. 378 (5th Cir. 2020)

7, 10-12

6, 10

Strickland v. Washington, 466 U.S. 668 (1984)

11

United States v. Fackrell, 991 F.3d 589 (5th Cir. 2021)

10

Constitutional Provisions and Statutes
28 U.S.C. §2254(a)

6

TEX. CODE CRIM. PROC. Art. 11.071

5

TEX. CODE CRIM. PROC. Art. 37.071, §2(b)(1)

6

TEX. CODE CRIM. PROC. Art. 37.071, §2(e)(1)

6, 9

U. S. CONST. amend. VI

6

Rules
SUP. CT. R. 44.2

4, 7-8, 15

4

TO THE SUPREME COURT OF THE UNITED STATES:
COMES NOW the Petitioner, Pete Russell (“Russell”), through the
undersigned appointed counsel, and requests rehearing of Russell’s Petition for Writ
of Certiorari (“Petition for Writ”). In support of this request, Russell submits the
following.
STATEMENT OF JURISDICTION
This Court has jurisdiction to consider this Petition for Rehearing if it is
submitted within 25 days after the Petition for Writ was denied. SUP. CT. R. 44.2.
Because the Petition for Writ was denied on May 17, 2021, this Petition for
Rehearing is timely if filed on or before June 11, 2021.
STATEMENT OF THE CASE
A presentation of the legal issues and germane facts is found in Russell’s
Petition for Writ. Briefly stated, Russell was convicted of Capital Murder in a Texas
district court, His conviction was upheld on direct appeal. Russell’s state application
for postconviction relief under TEX. CODE CRIM. PROC. Art. 11.071 was denied
by the Texas Court of Criminal Appeals (“TCCA”), as had been recommended by the
state habeas court judge (Pet. App. Exh. 3, Exh. 4.p 23; ROA-19.70015.5560).1

1

Documents appearing as exhibits in the Appendix to Russell’s Petition for Writ of
Certiorari are designated by “Pet. App. Exh.” and the exhibit number. Where applicable, the
record on appeal, designated ‘ROA,” also is cited.
5

Russell timely sought relief in the United States District Court for the Southern
District of Texas under 28 U.S.C. §2254(a). Two of the claims in that court concerned
ineffective assistance of trial counsel at the punishment stage of trial, in violation of
U.S. CONST. Amend. VI. Russell complained of trial counsel’s effectiveness as to
TEX. CODE CRIM. PROC. Art. 37.071, §2(b)(1), regarding a special issue as to
“whether there is a probability that the defendant would commit criminal acts of
violence that would constitute a continuing threat to society.” This type of issue is
commonly known as a “future dangerousness” issue. Russell also complained of
ineffective assistance of trial counsel as to a special issue submitted to the jury under
TEX. CODE CRIM. PROC. Art. 37.071, §2((e)(1), regarding mitigation. Relief was
denied by the federal district court judge, who also denied a certificate of
appealability (“COA”) (Pet. App. Exh. 2, p. 45; ROA-19.70015.488).
Russell timely sought a COA in the United States Court of Appeals for the
Fifth Circuit. Both of the foregoing ineffective assistance claims were included in the
application for a COA, along with other issues. A Fifth Circuit panel denied a COA.
Russell v. Lumpkin, 827 Fed. Appx. 378 (5th Cir. 2020). Russell then timely filed his
Petition for Writ in this Court, presenting the question set forth on page 1 of this
Petition. The respondent filed a brief in opposition on April 8, 2021. On May 12,
2021, Russell submitted a reply addressing some arguments made by the respondent.

6

On May 17, 2021, this Court denied Russell’s Petition for Writ.
SUMMARY OF THE ARGUMENT
The denial of Russell’s Petition for Writ needs to be reconsidered in light of
a case decided after this Court denied the Petition for Writ. That case is Ex parte
Andrus, __ S.W.3d __ (Tex. Crim. App. No. WR-84,438-01, May 19, 2021) (2021
Tex. Crim. App. LEXIS 522) (“Andrus II”). In that case, decided on remand after this
Court’s decision in Andrus v. Texas, 590 U.S. __, 140 S.Ct. 1875 (2020) (“Andrus I”),
the TCCA failed to evaluate the prejudice arising from the ineffective assistance of
trial counsel regarding future dangerousness, which had been pointed out in Andrus
I. Instead the evidence which was urged by the State as being “aggravating” was
addressed only in the context of a “balancing test” for mitigation.
The same thing happened to Russell, except it started with the state habeas
court’s disregard of substantial scientific evidence provided to Russell’s habeas
counsel by an expert, Dr. Mark Cunningham. Granting the COA would give Russell
a chance to utilize full briefing on the specific issue. It would give the Fifth Circuit
panel a chance to examine the issue in light of Andrus I and Andrus II.2

2

Andrus bypassed the Fifth Circuit by not utilizing Section 2254(a).
7

REASONS FOR REHEARING
I. Compliance with Rule 44.2
SUP. CT. R. 44.2 states in pertinent part:
Any petition for the rehearing of an order denying a petition for a writ
of certiorari or extraordinary writ shall within 25 days after the date of
the order of denial and shall comply with all the form and filing
requirements of paragraph 1 of this Rule, including the payment of the
filing fee if required, but its grounds shall be limited to intervening
circumstances of a substantial or controlling effect or to other
substantial grounds not previously presented.
Rule 44.2 does not define “intervening,” but the decision in Andrus II, after this Court
had ruled on Russell’s Petition for Writ is“intervening” in the sense of providing
insights which became available after this Court’s original decision.
II.
The Importance of Discrete Review of Future Dangerousness
Russell has contended, ever since his state habeas application was filed, that
his trial attorneys rendered ineffective assistance of counsel on the future
dangerousness issue. An extensive evaluation by Dr. Cunningham was included in
Russell’s state habeas application to show how much scientific evidence which could
raise doubt on the first special issue was not explored by Russell’s trial counsel (Pet.
App. Exh.7; ROA-19.70015.4998-5062). This was not due to mere neglect.
Russell’s trial attorneys actually opposed consideration of expert testimony by the

8

jury, based on outmoded thinking, as described in the Petition for Writ, pp. 27-28.
Russell’s attorneys did not seek any funding for pretrial consultation with an expert
to determine what ammunition expert testimony could provide.
The state habeas findings of fact and conclusions of law were “proposed” and
written by an appellate prosecutor, then adopted in toto by the state habeas judge (Pet.
App. Exh 4, last page). They scarcely touched the topic of future dangerousness. No
attempt was made to discuss the details of Dr. Cunningham’s lengthy, multifaceted
report on future dangerousness. The TCCA’s order denying relief offered no
substantive comment, but simply adopted the habeas court’s findings and conclusions
(Pet. App. Exh. 3).
Under the Texas mitigation special issue, set forth in TEX. CODE CRIM.
PROC. Art. 37.071, §2(e)(1), bad aspects of a defendant’s “background” and
“character” are to be balanced against mitigating factors.3 In some jurisdictions,
future dangerousness is considered solely in that manner, not as a discrete special
issue. For example, Congress dictated that approach for federal courts in 18 U.S.C.
3

Article 37.071, section 2(e)(1) states:

The court shall instruct the jury that if the jury returns an affirmative finding to
each issue submitted under Subsection (b), it shall answer the following issue:
Whether, taking into consideration all of the evidence, including the
circumstances of the offense, the defendant’s character and background, and the
personal moral culpability of the defendant, there is a sufficient mitigating
circumstance or circumstances to warrant that a sentence of life imprisonment
without parole rather than a death sentence be imposed.
9

§3593©, as described in United States v. Fackrell, 991 F.3d 589, 601 (5th Cir. 2021).
Under Texas law, the kind of evidence which is often called “aggravating” must first
be analyzed under the separate future dangerousness question, for which the State has
a burden of proof beyond a reasonable doubt. It is not just lumped into the evidentiary
mix for the normative decision made on the mitigation special issue. Given the way
the Texas statute is written, an adequate punishment defense in a Texas death-penalty
case requires investigation into evidence which might raise a doubt that the defendant
really would present a danger in the future unless he is executed.
III. New Insights from Ex Parte Andrus
This Court denied Russell’s Petition for Writ without the benefit of Andrus II.
That decision was issued on May 19, 2021, two days after this Court ruled in this
cause. Andrus II was a response to Andrus I, where a state habeas judge had found
inadequate pretrial investigation by counsel regarding mitigation, but the TCCA did
not agree. Bypassing the route through the lower federal courts provided by 28 U.S.C.
§2254(a), Andrus petitioned this Court for a writ of certiorari, which was granted.
This Court held that Andrus’ claim satisfied the first prong of the test for ineffective
assistance established in Strickland v. Washington, 466 U.S. 668 (1984), but this
Court remanded the case to the Court of Criminal Appeals for consideration of the
prejudice prong of Strickland. See Andrus I, 140 S.Ct., at 1880.

10

The main theme in Andrus I was ineffective assistance with regard to
mitigation, but this Court also spoke directly to the same issue which Russell is
raising, i.e. ineffective assistance due to lack of investigation and preparation of a
defense on future dangerousness. Andrus I commented that defense counsel “failed
to conduct any independent investigation of the State’s case in aggravation, despite
ample opportunity to do so. He thus could not, and did not, rebut critical aggravating
evidence.” Id. at 1884. Andrus I also noted the sequence of the two issues, and that
the absence of preparation for the future dangerousness issue “relinquished the first
of only two procedural pathways for opposing the State’s pursuit of the death
penalty.” Id., at 1885. This Court could have added that the “pathway” relinquished
often is the better one for defendants, even though it has gotten less popular attention
than mitigation has. See the Petition for Writ, pp. 19-20.
In Andrus II, the TCCA went to great lengths to point out all the bad conduct
of Andrus over the course of his life, including some bad acts while incarcerated.
This was part of the focus in Andrus II on how aggravating evidence acted as a
counterweight to mitigating factor: “The mitigating evidence offered at the habeas
stage must also be weighed against the strong and substantial aggravating evidence
offered at trial.” Id., at p. 21 in the LEXIS version. Using “aggravating” evidence as
part of the mix in the mitigation special issue is correct, but such evidence, and

11

evidence to rebut it, also are specifically the focus of the first special issue.
The lengthy majority opinion in Andrus II, and a dissenting opinion which also
lambasted this Court’s Andrus I decision, made no reference to what Andrus I had
said about ineffective assistance on future dangerousness. Just an oversight by the
TCCA? Andrus II was supposed to conduct a “prejudice” analysis, but only did so
for the mitigation issue. Prejudice analysis applied to what Andrus I said about future
dangerousness would have forced the TCCA to face the legal certainty that, if
reasonable doubt is created on the State’s future dangerousness evidence, the
punishment phase of trial must end in the defendant’s favor. Piling on the negative
facts in Andrus’ background would not have mattered if the TCCA had found that
ineffective assistance on the future dangerousness issue was prejudicial. Recall that
“confidence in the outcome” is the yardstick for prejudice under Strickland,, supra
at 698. Since the State must win both of the special issues in order for the death
penalty to be assessed, no reasonable jurist could be “confident” that an outcome
dictating the death penalty would occur once Andrus, or Russell, or any other Texas
death-penalty defendant prevailed on the future dangerousness issue. On the contrary,
the death penalty becomes impossible at that point.
Just as the TCCA ignored future dangerousness in Andrus II, the state habeas
findings in Russell’s case virtually ignored the copious evidence in Dr. Cunningham’s

12

report, which was attached to the state habeas application. Rather than remedying trial
counsel’s disregard for plentiful evidence which could have raised a reasonable doubt
on the future dangerousness issue, the state habeas court showed similar disregard.
IV. The Need for a Certificate of Appealability
The specific question which Russell asked this Court to consider is whether the
Fifth Circuit panel’s denial of a COA departed from the standards this Court’s case
law has set for the decision whether a COA should be granted. That case law is
described in the Petition for Writ, and it supports Russell’s contention that full
briefing on a particular issue, after other issues which earlier competed for judicial
attention have been removed, will lead to a more complete and more reliable
evaluation of trial counsel’s effectiveness on the future dangerousness issue. While
Russell and the respondent have disputed whether the scope of the Circuit panel’s
handling of the issue was or was not a full discussion, the most important point is that
a but it is more important to consider whether a full presentation of the issue must
be allowed before a decision is made.
Finally, the Fifth Circuit panel relied in part on an affidavit by Russell’s
counsel, expressing the belief that “evidence of Russell’s life and background was
more effective than studies of convicted murderers.” Russell v. Lumpkin, supra at 40;
(Pet. App. Exh. 1). No such belief, even if sincerely held, can negate this Court’s

13

case law, which puts the obligation on counsel to investigate possible defenses before
deciding upon a strategy. That did not happen in Pete Russell’s trial. Surely that is
a matter which is worth allowing Russell to proceed with full briefing for the Circuit
panel, especially with a human life at stake.
CONCLUSION
Wherefore Russell prays that this Court grant this Petition for Rehearing.
Respectfully submitted,

/s/ Winston Earle Cochran, Jr.
Winston Earle Cochran, Jr.
Attorney at Law
Texas Bar No. 04457300
S. D. Texas No. 14490
P. O. Box 2945
League City, TX 77574
Tel. (713) 228-0264
E-mail: winstoncochran@comcast.net
Counsel of Record under the
Criminal Justice Act of 1964,
18 U.S.C. §3006A(d)(6)

14

CERTIFICATE OF COMPLIANCE WITH SUP. CT. R. 44.2
The undersigned counsel hereby certifies, pursuant to Rule 44.2, that this
Petition for Rehearing is limited to intervening circumstances of a substantial or
controlling effect or to other substantial grounds not previously presented.
Specifically, a new case on the same topic was decided after this Court denied
Russell’s Petition for Writ of Certiorari. That case is entirely new, and a comparison
of that new case with existing case law is a substantial ground which was not
previously presented.
I certify that this petition for rehearing is presented in good faith and not for
purposes of delay.

/s/ Winston Earle Cochran, Jr.
Winston Earle Cochran, Jr.
Counsel for Petitioner

15

